Department of Homeland Security
   Ofﬁce of Inspector General


              Major Management Challenges 

        Facing the Department of Homeland Security 





OIG-09-08                                    November 2008
                                                               Office of Inspector General

                                                               U.S. Department of Homeland Security
                                                               Washington, DC 20528




                                       November 12, 2008


                                       Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established
by the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, and special reports prepared as
part of our oversight responsibilities to promote economy, efficiency, and effectiveness within
the department.

The attached report presents our FY 2008 assessment of the major management challenges
facing the Department of Homeland Security. As required by the Reports Consolidation Act of
2000 (Public Law 106-531), we update our assessment of management challenges annually.

It is our hope that this report will result in more effective, efficient, and economical operations.
We express our appreciation to all of those who contributed to the preparation of this report.




                                       Richard L. Skinner             

                                       Inspector General          
                   

                                                               Office of Inspector General

                                                               U.S. Department of Homeland Security
                                                               Washington, DC 20528




Major Management Challenges Facing the Department of 

               Homeland Security 


The creation of the Department of Homeland Security galvanized the Nation’s fight against
terrorism by consolidating and mobilizing the assets of the federal government under one
roof with a single, focused mission: to ensure that the tragic events of Sept. 11, 2001, are
never repeated again on American soil.

After just 5 short years, we are beginning to witness the positive effects of the department’s
efforts and initiatives: tighter security at the borders; increased immigration enforcement;
greater cooperation with our international partners; expanded partnerships with the private
sector; better and more efficient passenger screening at our airports; and regenerated disaster
response and recovery management. Despite these considerable accomplishments, DHS still
has much to do to establish a cohesive, efficient, and effective organization.

The major management challenges we have identified significantly affect the department’s
ability to protect our homeland and are decisive factors in setting priorities for audits,
inspections, and evaluations of DHS programs and operations. As required by the Reports
Consolidation Act of 2000 (Public Law 106-531), we update our assessment of management
challenges annually.

We have identified the following major management challenges:
      � Acquisition Management
      � Financial Management
      � Information Technology Management
      � Catastrophic Disaster Response and Recovery
      � Grants Management
      � Infrastructure Protection
      � Border Security
      � Transportation Security
      � Trade Operations and Security

Since the major management challenges have tended to remain the same from year to year,
we are developing scorecards to distinguish the department’s progress in selected areas. Our


                                                                                                      1
first scorecard, published in the Semiannual Report to Congress, October 1, 2006 – March
31, 2007, included an assessment of DHS’ acquisition function. This report features
scorecards for acquisition management, financial management, information technology
management, and catastrophic disaster response and recovery. These four scorecards are
summarized in Figure 1 and incorporated in our discussion of the major management
challenges.

Figure 1.


       DHS’ OVERALL PROGRESS IN
            SELECTED AREAS
 Ratings are based on a four-tiered scale:
 Limited, Modest, Moderate, and Substantial.
                                  Modest Progress
 Acquisition Management

                                  Modest Progress
 Financial Management

                                  Moderate Progress
 Information Technology
 Management

                                  Moderate Progress
 Catastrophic Disaster
 Response and Recovery




                                                                                           2
ACQUISITION MANAGEMENT
Contracting for goods and services consumes nearly 40% of the department’s annual budget
and is absolutely critical to achieving its mission. Acquisition management is a complex
process that goes beyond simply awarding a contract. It begins with the identification of a
mission need; continues with the development of a strategy to fulfill that need while
balancing cost, schedule, and performance; and concludes with contract closeout after the
terms have been satisfactorily met. A successful acquisition process requires an effective
acquisition management infrastructure.

The following are critical acquisition success factors:
   �	 Organizational Alignment and Leadership—ensures appropriate placement of the
       acquisition function, defines and integrates roles and responsibilities, and maintains
       clear, strong executive leadership;
   �	 Policies and Processes—partnering with internal organizations, effective use of
       project management approaches, and establishment of effective internal controls;
   �	 Acquisition Workforce—commitment to human capital management, integration and
       alignment of human capital approaches with organizational goals, and investment in
       people; and
   �	 Knowledge Management and Information Systems—tracking of key acquisition data,
       analysis of supplies and services spending, and data stewardship.

Acquisition Management Scorecard

The following scorecard demonstrates areas where DHS has strengthened its acquisition
management practices. We based our assessment on pertinent reports, particularly recent
audit work conducted at the Federal Emergency Management Agency (FEMA), reports
published by the Government Accountability Office (GAO), and congressional testimony.
Given the scope of our review, we did not perform an in-depth assessment of each
cornerstone of the acquisition framework. We used the critical elements within each—
organizational alignment and leadership, policies and processes, acquisition workforce, and
knowledge management and information systems—as well as our broader knowledge of the
acquisition function, to gauge overall progress in those cornerstones.

The ratings were based on a four-tiered scale ranging from limited to substantial progress:

   �	 Limited: While there may be plans to address critical success factors, few if any
      have been implemented;
   �	 Modest: While some improvements have been made, many of the critical success
      factors have not yet been achieved;
   �	 Moderate: Many of the critical success factors have been achieved; and
   �	 Substantial: Most or all of the critical success factors have been achieved.

Based on the consolidated result of the four acquisition management capability areas, DHS
has made “modest” progress overall in the area of Acquisition Management.




                                                                                              3
               ACQUISITION MANAGEMENT SCORECARD
                                                                 Modest Progress
Organizational Alignment and Leadership

DHS' executive leadership has made “modest” progress in ensuring that the acquisition
program achieves the organizational alignment needed to perform its functions. The
department continues to face challenges associated with implementing an acquisition
function that is not fully integrated. According to GAO,1 the structure of DHS'
acquisition function creates ambiguity about who is accountable for acquisition decisions.
The Chief Procurement Officer (CPO) has used collaboration and cooperation with the
components as the primary means of managing DHS-wide acquisition oversight.
However, the CPO faces challenges in implementing the corrective actions, as they are
only recommendations, and the component head determines what action will be taken.2

FEMA has made “modest” progress in aligning the acquisition function to serve as a
partner, rather than a support function, for FEMA program offices. The Office of
Acquisition Management (OAM) has created an Acquisition Program & Planning branch,
which aligns acquisition personnel with program functions and will serve as the primary
link between acquisitions and the program areas that generate requirements.3 A major
challenge is maintaining a sufficient acquisition workforce. In addition, OAM has
experienced turnover of the senior leadership responsible for developing and
communicating a strategic vision.

                                                                 Modest Progress
Policies and Processes

DHS has made “modest” progress in developing policies and processes to ensure that
components comply with regulations, policies, and processes to achieve department-wide
goals. Previously, we reported that the department had begun implementation of its
acquisition oversight plan, which incorporates DHS policy, internal controls, and
elements of an effective acquisition function. However, the oversight program does not
include an evaluation of outcomes from contracting methods such as performance-based
acquisitions. According to GAO4, the initial implementation of the plan has helped the
components prioritize actions to address identified weaknesses, although it is too early to
assess the plan's overall effectiveness.


1
  GAO-07-948T, Department of Homeland Security Ongoing Challenges in Creating an Effective Acquisition 

Organization, June 2007. 

2
  GAO-07-900, Department of Homeland Security, Progress and Challenges in Implementing the Department’s 

Acquisition Oversight Plan, June 2007. 

3
  DHS-OIG, FEMA’s Preparedness for the Next Catastrophic Disaster, OIG-08-34, March 2008. 

4
  GAO-08-646T, Progress Made in Implementation of Management Functions, But More Work Remains, April 

2008. 




                                                                                                      4
                ACQUISITION MANAGEMENT SCORECARD
FEMA has implemented the Virtual Acquisition Office TM that provides an easily
accessible, one-stop shop for useful acquisition guidance, and OAM has updated its
Emergency Acquisition Field Guide. However, clear and transparent policies and
processes for all acquisitions are still needed.
                                                                   Modest Progress
Acquisition Workforce

DHS has made “modest” progress in building and maintaining a skilled acquisition
workforce. Previously, we reported that personnel budget increases had allowed the
department to fill many acquisition staff positions. However, there are still workforce
challenges across the department. GAO reported in April 2008 that approximately 61%
of the minimum required staff and 38% of the optimal level of contract specialists were
in place. Components within the department such as the U.S. Coast Guard (Coast Guard)
have initiatives to develop and retain a workforce capable of managing complex
acquisition programs, but they are still relying on contractors to fill key positions. DHS
also needs to improve the tracking of its acquisition workforce training and qualifications
to ensure workforce development and appropriate assignment to acquisition projects.

FEMA has significantly increased the number of its acquisition staff and has developed
training initiatives for them. However, FEMA needs to focus on preparing the
acquisition workforce to respond to a catastrophic disaster.
                                                                   Modest Progress
Knowledge Management and Information
Systems
DHS has made “modest” progress in developing and deploying information systems to
track and analyze acquisition data and improve user efficiency. Some progress has been
made in the integration of information systems. For example, according to the Coast
Guard, it has completed the integration of three separate Coast Guard accounting systems
into a single Acquisition, Construction, and Improvement data set that is usable by all
Coast Guard acquisition personnel as part of its Blueprint for Acquisition Reform.
However, the department and its components still need to improve database reliability
and verification.

FEMA has made limited progress in providing staff with the tools they need to carry out
their jobs. The outdated and nonintegrated information systems currently used by
acquisition personnel were to be replaced by the PRISM contract-writing system in early
2008. The PRISM roll-out has now been pushed back to 2009. Until PRISM is
instituted, acquisition personnel must use nonintegrated systems that require duplicate

5
  Statement of James L. Taylor, Deputy Inspector General, U.S. Department of Homeland Security, Before the
Subcommittee on Management, Investigations, and Oversight, Committee on Homeland Security, U.S. House
of Representatives, September 17, 2008; DHS-OIG, Logistics Information Systems Need to be Strengthened at
the Federal Emergency Management Agency, OIG-08-60, May 2008.



                                                                                                             5
                ACQUISITION MANAGEMENT SCORECARD
input of data, thus increasing the possibility of errors. Logistics systems are not
integrated with acquisition systems and do not provide complete asset visibility of
disaster goods.5



FINANCIAL MANAGEMENT
DHS has continued to improve financial management in FY 2008, but challenges remain. As
in previous years, our independent auditors were unable to provide an opinion on DHS’ FY
2008 financial statements because the department could not provide sufficient evidence to
support its financial statements or represent that financial statement balances were correct.
The department has continued to remediate material weaknesses and has reduced the number
of conditions that contribute to the disclaimer of opinion.

Although the Transportation Security Administration’s (TSA) entity level controls
deteriorated in FY 2008, the department made overall improvements in entity level controls
at the departmental and component level. These improvements resulted in a reduction in the
total number of material weaknesses from seven in FY 2007 to six in FY 2008. Even though
new conditions were identified at FEMA and TSA, all components generally made progress
in FY 2008.

As in FY 2007, the departmental material weaknesses in internal control were primarily
attributable to the Coast Guard, FEMA, and TSA. The Coast Guard’s material weaknesses,
which have existed since 19946, contribute to all six of the department’s material
weaknesses, while FEMA contributes to four and TSA contributes to three. The Coast Guard
also contributes to TSA’s financial systems security material weakness due to TSA’s reliance
on the Coast Guard’s financial systems. Although the other components did not have
material weaknesses, some had significant deficiencies that, when combined, contributed to
the departmental material weaknesses.

Financial Management Scorecard

The following scorecard presents the status of DHS’ effort to address internal control
weaknesses in financial reporting that were identified in FY 2007. The scorecard is divided
into two categories: (1) Military – Coast Guard and (2) Civilian – all other DHS components.
The scorecard lists the seven material weaknesses and one other significant deficiency
identified during the independent audit of the FY 2007 DHS consolidated balance sheet and
statement of custodial activity. For a complete description of the internal control weaknesses
identified in the FY 2007 audit, see OIG-08-12.7 To determine the status, we compared the

6
  DOT-OIG, Significant Internal Control Weaknesses Identified in Audits of FY 1994 and 1995, R3-CG-6-011,
 

August 1996.

7
  DHS-OIG, Independent Auditors' Report on DHS' FY 2007 Financial Statements, OIG-08-12, November
 

2007. 




                                                                                                          6
material weaknesses reported by the independent auditor in FY 2007 with those reported in
FY 2008. The scorecard does not include other financial reporting control deficiencies
identified in FY 2008 that do not rise to the level of a significant deficiency, as defined by
the American Institute of Certified Public Accountants. The ratings show that the department
made some progress in FY 2008 toward remediation of the control weaknesses that were
identified in FY 2007.

The ratings were based on a four-tiered scale ranging from limited to substantial progress as
follows:

   �	 Limited: While there may be plans to address internal control weaknesses, few if any
      have been remediated;
   �	 Modest: While some improvements have been made, many of the internal control
      weaknesses have not yet been remediated;
   �	 Moderate: Many of the internal control weaknesses have been remediated; and
   �	 Substantial: Most or all of the internal control weaknesses have been remediated.

Based on the consolidated result of the seven financial management capability areas, DHS
has made “modest” progress overall in the area of Financial Management.


                 FINANCIAL MANAGEMENT SCORECARD
Financial Management and Entity Level Control: Entity level controls are the
                            foundation that ensures internal control systems are
                            comprehensively designed to achieve the mission and execute
                            the department’s strategy.

      Military              Modest Progress

                  The Coast Guard made “modest” progress in addressing its internal
                  control weaknesses related to financial management and entity level
                  controls. In FY 2007, the independent auditor’s report (IAR) noted that
                  several conditions related to entity level control weakness also existed in
                  prior years. For example, the Coast Guard did not fully implement a
                  financial management organizational structure that incorporates U.S.
                  generally accepted accounting principles or appropriately supports its
                  financial statement balances. As a result, the Coast Guard could not
                  assert to the completeness, existence (validity), accuracy, valuation, or
                  presentation of its financial data.

                  Although entity level control weaknesses continued to exist at the Coast
                  Guard in FY 2008, some progress has been made. The FY 2008 IAR
                  noted that the Coast Guard updated its Mission Action Plans in FY 2008
                  and created the Financial Strategy for Transformation and Audit
                  Remediation (FSTAR). The FSTAR is a comprehensive plan to identify
                  and correct the root causes of control deficiencies. However, most of the



                                                                                                7
           FINANCIAL MANAGEMENT SCORECARD
           corrective actions outlined in the FSTAR were not scheduled to begin in
           FY 2008. Consequently, most of the entity level control weaknesses
           identified during FY 2007 continued to exist during FY 2008. The
           conditions noted at the Coast Guard contributed to an overall significant
           deficiency in entity level control at the department for FY 2008.


Civilian            Moderate Progress
           Overall, DHS has demonstrated “moderate” progress in establishing a
           financial management organization structure to enforce accountability
           and institute internal controls into the department’s culture. As a result,
           DHS has remediated the severity of this condition from a material
           weakness to a significant deficiency with Coast Guard, FEMA, and TSA
           contributing to this condition. However, while FEMA was the only
           civilian component that contributed to the material weakness in FY 2007,
           there is now one additional component (TSA) contributing to a
           significant deficiency in FY 2008.

           The department has undertaken and completed several steps designed to
           strengthen its entity and process level internal controls, thereby
           improving the reliability of financial reporting. These steps are
           documented in the DHS FY 2008 Internal Control Playbook, released in
           March 2008, and in component level Mission Action Plans finalized in
           FY 2008.

           During FY 2007, a number of internal control weaknesses related to
           financial management and entity level controls at FEMA rose to a
           material weakness at the DHS consolidated financial statement level.
           Among other conditions, the independent auditors noted that FEMA had
           not established a financial management organization structure with clear
           oversight and supervisory review functions that support the development
           and implementation of effective policies, procedures, and internal
           controls over financial reporting. Such policies, procedures, and controls
           are needed to ensure that accounting principles are correctly applied and
           accurate financial data is submitted to the Office of Financial
           Management for consolidation in a timely manner.

           FEMA has made “modest” progress toward correcting its entity level
           control deficiencies. During FY 2008, the independent auditors noted
           that FEMA developed Mission Action Plans to eliminate account balance
           qualifications identified in the IAR in FY 2007. However, some entity
           level control deficiencies identified in previous years continued to exist
           throughout FY 2008.




                                                                                         8
                 FINANCIAL MANAGEMENT SCORECARD
                 During FY 2008, TSA successfully addressed some account balance
                 discrepancies and control deficiencies that contributed to the disclaimer
                 of opinion on DHS’ financial statements. However, during the FY 2008
                 audit, additional deficiencies that are indicative of weaknesses in entity
                 level controls were identified at TSA.
Financial Reporting: Financial reporting is the process of presenting financial data
                           about an agency’s financial position, the agency’s operating
                           performance, and its flow of funds for an accounting period.
                           The Federal Financial Management Improvement Act
                           emphasizes the need for agencies to have systems that can
                           generate timely, reliable, and useful information with which to
                           make informed decisions to ensure ongoing accountability.

     Military              Limited Progress

                 The Coast Guard has demonstrated “limited” progress in remediating the
                 numerous internal control weaknesses identified by the independent
                 auditors during FY 2007. Significant control deficiencies contributing to
                 a material weakness in financial reporting in FY 2007 included: 1) lack
                 of an effective general ledger system; and 2) lack of effective policies,
                 procedures, and controls surrounding the financial reporting process.

                 Although the Coast Guard developed its FSTAR during FY 2008, most
                 of the corrective actions outlined in the document are scheduled to occur
                 after FY 2008. Consequently, the Coast Guard was unable to make
                 substantial progress in correcting the control weaknesses that were
                 reported in prior years, and a material weakness still existed in FY 2008.

      Civilian             Modest Progress

                 During FY 2008, DHS made “modest” progress in correcting the
                 conditions that contributed to the material weakness in financial
                 reporting in FY 2007. In FY 2007, conditions at the Office of Financial
                 Management and FEMA rose to a level of material weakness, and
                 conditions at TSA were considered a significant deficiency.

                 During FY 2008, the Office of Financial Management fully corrected its
                 material weakness over financial reporting, and FEMA made substantial
                 progress toward correcting four material weaknesses that were reported
                 in FY 2007. However, while FEMA has taken positive steps in FY 2008,
                 some control weaknesses related to financial reporting continued to exist
                 throughout FY 2008. These conditions at FEMA in the aggregate are
                 considered a material weakness. In FY 2007, TSA adopted a two-year
                 corrective action plan to address its financial reporting and other


                                                                                              9
                FINANCIAL MANAGEMENT SCORECARD
                accounting internal control weaknesses. This resulted in TSA making
                some progress in the development of its core accounting processes
                throughout FY 2008. However, the independent auditors noted
                additional and more serious financial reporting control weaknesses, some
                of which have existed since the agency’s inception. As a result, the
                severity of the condition worsened in FY 2008 and TSA now has a
                material weakness condition in financial reporting at the department
                level.

Financial Systems Security: Financial systems security is essential to achieving
                          effective, reliable reporting of financial and performance data.

     Military             Limited Progress

                The Coast Guard has made “limited” progress in correcting certain
                information technology (IT) general control weaknesses identified in
                previous years. During FY 2007 significant control deficiencies
                included: 1) excessive access to key Coast Guard financial applications,
                2) application change control processes that are not adequately designed
                nor operating effectively, 3) entity-wide security program issues
                involving personnel background checks, 4) system software weaknesses
                involving patch management, 5) segregation of duties involving lack of
                policies and procedures and excessive privilege access issues, and 6)
                service continuity issues involving the lack of disaster recovery testing .
                Significant deficiencies in application change control processes are
                among the principle causes of the Coast Guard’s inability to support its
                financial statement balances. In addition, the Coast Guard was not able
                to effectively prioritize and implement Corrective Action Plans to
                remediate the root cause of the IT general control weaknesses in 2007.
                Many of these weaknesses were inherited from system development
                activities that did not incorporate strong security controls during the
                initial implementation of the system over five years ago, and will take
                several years to fully address. These weaknesses exist in the
                documentation of processes, the implementation of adequate security
                controls over processes, and within financial systems. In FY 2008, the
                Coast Guard remediated approximately 48% of its prior year IT general
                controls weaknesses. Specifically, the Coast Guard has made progress in
                remediation of issues in the areas of segregation of duties, systems
                software, and service continuity. Although there has been an
                improvement in the remediation effort, significant issues with the Coast
                Guard’s change control process continue to exist for its financial
                applications.




                                                                                             10
                FINANCIAL MANAGEMENT SCORECARD

     Civilian            Moderate Progress

                The DHS Office of Chief Financial Officer and Office of Chief
                Information Officer (OCIO) have demonstrated moderate progress in
                improving their financial systems security. In FY 2007, two civilian
                components contributed to the financial systems security material
                weakness. Significant control deficiencies were noted in the areas of
                access controls, application change control and service continuity. In FY
                2008, these two components continued to contribute to this material
                weakness although one component did make improvements in the area of
                service continuity. Overall improvements in the Federal Information
                System Controls Audit Manual domains for all civilian components
                resulted in the closing of approximately 43 % of the IT general control
                findings identified in FY 2007. One component however, continues to
                show significant weaknesses in the areas of access controls and
                application change controls for its financial systems. In addition, results
                of a performance audit conducted in FY 2008 noted that the OCIO’s Plan
                of Action and Milestones process does not contain actionable steps to
                remediate the issues or address the root cause of the material weakness.
                In addition, Plans of Action and Milestones are not consistently updated,
                and there is no correlation between the OCIO’s Plan of Action and
                Milestones and the Office of the Chief Financial Officer’s OMB A-123
                strategy.
Fund Balance with Treasury (FBwT): FBwT represents accounts held at
                          Treasury from which an agency can make disbursements to
                          pay for its operations. Regular reconciliation of an agency’s
                          FBwT records with Treasury is essential to monitoring and
                          safeguarding these funds, improving the integrity of various
                          U.S Government financial reports, and providing a more
                          accurate measurement of budget resources.

     Military             Limited Progress

                The Coast Guard has demonstrated “limited” progress in addressing the
                material weaknesses noted in this area in FY 2007. Some of the
                conditions noted in FY 2007 included: 1) lack of adequate supporting
                documentation that validated the accuracy of all of the Coast Guard
                FBwT reconciliations; 2) lack of an effective process for accounting for
                suspense account transactions related to FBwT; 3) the Coast Guard’s
                inability to provide validated military and civilian payroll data to support
                payroll transactions processed through the Coast Guard’s FBwT account.




                                                                                               11
                FINANCIAL MANAGEMENT SCORECARD
                In FY 2008, the Coast Guard developed a remediation plan (FSTAR) to
                address the control deficiencies. However, most of the corrective actions
                noted in the plan are scheduled to occur after FY 2008, thus, many of the
                conditions identified in FY 2007 continued to exist throughout FY 2008.
                These control weaknesses at the Coast Guard resulted in an overall
                material weakness for the Department in FY 2008, as FBwT at the Coast
                Guard represented approximately 8.3 % of total DHS FBwT at the end of
                FY 2008.

     Civilian           Substantial Progress

                No control deficiencies related to FBwT were noted at the civilian
                components in FY 2007. Corrective actions implemented in previous
                years continued to be effective throughout FY 2007 and FY 2008.
Capital Assets and Supplies: DHS capital assets and supplies consist of items such
                          as property, plant and equipment, operating materials, and
                          supplies, including boats and vessels at the Coast Guard,
                          passenger and baggage screening equipment at TSA, and
                          stockpiles of inventory to be used for disaster relief at FEMA.

     Military             Limited Progress

                The Coast Guard has demonstrated “limited” progress in remediating the
                control deficiencies related to capital assets and supplies in FY 2008.
                The Coast Guard maintains approximately 60% of all DHS’ property,
                plant, and equipment (PP&E), which includes a large fleet of boat and
                vessels. Since many of the Coast Guard’s assets are constructed over a
                multi-year period, have long useful lives, and undergo extensive routine
                servicing that may increase their value or extend their useful lives,
                comprehensive policies and procedures are necessary to accurately and
                timely account for these assets. In FY 2007, as in prior years, the
                independent auditors noted that the Coast Guard has been unable to
                provide auditable documentation for certain categories of PP&E due to a
                number of policy, control, and process deficiencies that will require
                several years to correct. Many of these conditions still existed
                throughout FY 2008.

                In FY 2008, the Coast Guard developed corrective action plans (FSTAR)
                to address the PP&E process and control deficiencies, and began
                remediation efforts. However, the corrective actions included in the
                FSTAR are scheduled to occur over a number of years. Consequently,
                most of the material weakness conditions cited in FY 2007 remained
                throughout FY 2008.




                                                                                            12
                FINANCIAL MANAGEMENT SCORECARD

     Civilian             Modest Progress
                Overall, the civilian components demonstrated “modest” progress in
                addressing the conditions identified in this area in FY 2007. In FY 2007,
                three civilian components contributed to a material weakness in capital
                assets and supplies. In FY 2007, conditions reported at FEMA rose to a
                level of material weakness, and significant deficiency at TSA and US­
                VISIT.

                During FY 2008, FEMA and US-VISIT were able to fully remediate the
                conditions leading to the material weaknesses identified in FY 2007.
                However, FEMA was unable to assert to the validity of internal use
                software and as a result, continues to contribute to the capital assets and
                supplies material weakness at the departmental level.
                Additionally in response to auditor inquires, TSA initiated various
                reviews of its capital assets and identified errors in its accounting for
                equipment used in airports that required a number of restatements to the
                FY 2007 financial statement balances, and current year corrections. As a
                result, TSA was unable to assert to the validity of capital assets and
                supplies and contributes to the qualification of the financial statements
                and material weaknesses at the department level.
                Also, new control weaknesses were identified at Customs and Border
                Protection (CBP) which were considered a significant deficiency. CBP’s
                internal control deficiencies in this area are primarily related to
                construction of a fence along the border of the United States and Mexico.
                The FY 2008 IAR noted that CBP had expensed construction cost instead
                of capitalizing it as construction-in-progress.
Actuarial and Other Liabilities: Liabilities represent the probable and measurable
                          future outflow or other sacrifice of resources as a result of past
                          transactions or events. The internal control weaknesses
                          reported in this area are related to various types of liabilities,
                          including accounts and grants payable, and legal and actuarial,
                          and environmental liabilities.

     Military             Limited Progress

                The Coast Guard maintains pension, medical, and postemployment travel
                benefit programs that require actuarial computations to record related
                liabilities for financial reporting purposes. Other liabilities include
                accounts payable, environmental, and legal liabilities.

                During FY 2008, the Coast Guard made “limited” progress in



                                                                                               13
                 FINANCIAL MANAGEMENT SCORECARD
                 remediating the conditions that contributed to the material weakness in
                 this area. Control deficiencies identified by the independent auditors in
                 FY 2007 and prior years continued to exist in FY 2008. For example, the
                 FY 2008 IAR on DHS financial statements noted that the Coast Guard
                 did not have effective policies, procedures, and controls to ensure the
                 completeness and accuracy of participant, medical cost and other data
                 provided to the actuary for the calculation of related benefit liabilities.

      Civilian             Modest Progress

                 Overall, the department demonstrated “modest” progress in this area.
                 During FY 2008, TSA fully corrected the control weaknesses that
                 contributed to a significant deficiency in this area in the prior year.
                 Additionally, conditions at FEMA were reduced to significant deficiency
                 (from material weakness in FY 2007). However, new control
                 weaknesses that rise to the level significant deficiency were identified at
                 three additional civilian components.

                 For FY 2008, the auditors noted that FEMA had not established a reliable
                 method to estimate certain accounts payable for accrual in the financial
                 statements until the end of the fiscal year. Additionally, for FY 2008 the
                 Federal Law Enforcement Training Center, Immigration and Customs
                 Enforcement (ICE), and Science and Technology components did not
                 fully implement policies and standard operating procedures that will
                 allow management to assert that environmental liabilities have been
                 recorded and disclosed in the financial statements in accordance with
                 applicable accounting standards.

             In the aggregate, the significant deficiencies at the four components and
             the material weakness at the Coast Guard amount to an overall material
             weakness for the department.
Budgetary Accounting: Budgetary accounts are a category of general ledger
                         accounts where transactions related to the receipt, obligation,
                         and disbursement of appropriations and other authorities to
                         obligate and spend agency resources are recorded. Since the
                         department received a disclaimer of opinion in FY 07, the
                         audit is limited to the balance sheet and statement of
                         custodial activity. As a result, audit coverage over budgetary
                         accounts is limited to undelivered orders.

     Military              Limited Progress




                                                                                               14
                 FINANCIAL MANAGEMENT SCORECARD
                 The Coast Guard has made “limited” progress in this area. Many of the
                 internal control weaknesses that contributed to a material weakness in
                 budgetary accounting at the Coast Guard in FY 2007 remained
                 throughout FY 2008. For example, the FY 2007 IAR noted that the
                 policies, procedures, and internal controls over the Coast Guard’s process
                 for validation and verification of some account balances are not effective
                 to ensure that recorded amounts are complete, valid, accurate, and that
                 proper approvals and supporting documentation is maintained. This
                 condition also existed during FY 2008. While some issues may take a
                 number of years to be corrected, several of the budgetary control
                 weaknesses can be corrected by process improvements and strengthened
                 policies and internal controls.

      Civilian             Modest Progress

                 DHS has demonstrated “modest” progress in remediating internal control
                 weaknesses that were noted in the FY 2007 IAR. During FY 2008, TSA
                 corrected its material weakness in this area. However, DHS’ biggest
                 challenge in this area remains at FEMA.

                 In FY 2008, FEMA implemented corrective actions and performed an
                 extensive review of its open obligations, including disaster relief and
                 response mission assignments with other federal agencies. As a result,
                 FEMA was able to deobligate over $1 billion in funds prior to year-end,
                 and make those funds available for FY 2008 disaster relief. FEMA also
                 improved its processes and internal controls over the mission assignment
                 obligation and monitoring process in FY 2008; however, significant
                 control deficiencies remain. As a result, the departmental level material
                 weakness condition remains at FEMA.

                 Additionally, CBP did not enforce its policies and procedures to monitor
                 and deobligate or closeout its obligations in a timely manner. In
                 response to an audit inquiry, CBP initiated a review of open obligations
                 and subsequently deobligated approximately $84 million in open
                 obligations in FY 2008. As a result, CBP has a significant deficiency
                 condition related to budgetary accounting and contributes to the
                 departmental level material weakness.


INFORMATION TECHNOLOGY MANAGEMENT

Creating a unified IT infrastructure for effective integration and agency-wide management of
IT assets and programs remains a challenge for the DHS Chief Information Officer (CIO). In
September 2008, we reported that DHS had taken steps to strengthen the CIO’s role for



                                                                                             15
centralized management of IT by providing greater authority and responsibility
for overseeing component CIOs’ IT acquisitions.8 As a result, the DHS CIO is better
positioned to govern the department’s IT investments and resources. However, continued
CIO staffing shortages and inconsistent component-level IT budget practices hinder the DHS
CIO’s ability to fully integrate department-wide IT programs. We recommended that the
DHS CIO update the CIO office’s staffing plan, ensure that components submit
comprehensive budgets, and develop and maintain IT strategic plans and enterprise
architectures aligned with DHS’ mission.

DHS also faces challenges in meeting OMB’s requirement to transition to a new internet
protocol, IPv6, which supports an unlimited number of IP addresses and other enhanced
capabilities.9 Although DHS is in the early stages of the transition, the department is
unlikely to be positioned to take timely advantage of the enhanced capabilities of IPv6. DHS
must also ensure that several key activities, such as establishing a comprehensive inventory
of all IPv6 devices, finalizing its IPv6 transition strategy, and engaging its components in
IPv6 transition planning and activities, are completed before it can fully transition to IPv6
functionality.

Security of IT Infrastructure

During our FY 2007 Federal Information Security Management Act10 (FISMA) evaluation of
the department’s intelligence systems, we reported that much progress had been made in
establishing an enterprise-wide IT security program that supports the department’s
intelligence operations and assets. However, procedural and operational issues remained
regarding the implementation of the department’s intelligence security program and system
controls.11

We also reviewed Homeland Security Presidential Directive 12 (HSPD-12), Policy for a
Common Identification Standard for Federal Employees and Contractors. The purpose of
HSPD-12 is to enhance security, increase government efficiency, reduce identity fraud, and
protect personal privacy by establishing a mandatory, government-wide standard for secure
and reliable forms of identification issued by the federal government to its employees and
contractors. The department is scheduled to complete its HSPD-12 implementation in 2010,
two years after OMB’s mandated deadline for all agencies.

In September 2008, we reported that components have not implemented appropriate security
controls to enforce the department’s policies on the acceptable use of portable storage
devices.12 The proliferation and uncontrolled use of portable storage devices (e.g., flash


8
  DHS-OIG, Progress Made in Strengthening DHS Information Technology Management, But Challenges 

Remain, OIG-08-91, September 2008. 

9
  In August 2005 OMB issued Memorandum 05-22 (M-05-22), Transition Planning for Internet Protocol 

Version 6 (IPv6), establishing the goal of transitioning federal agencies’ wide area networks to IPv6. 

10
   Title III of the 2002 E-Government Act, Public Law 107-347 

11
   DHS-OIG, Challenges Remain in Executing the Department of Homeland Security’s Information Technology 

Program for Its Intelligence Systems, OIG-08-48, April 2008. 

12
   DHS-OIG, Review of DHS Security Program for Portable Storage Devices, OIG-08-95, September 2008. 




                                                                                                     16
drives, external hard drives, and portable music players) increases the risk of theft and
mishandling of sensitive information.

DHS Component IT Management

Although improvements have been made, DHS continues to struggle with agency-wide IT
management, planning, and investment, which has resulted in limited system integration and
data sharing. For example, in October 2007, we reported that due to a lack of authority and
standard policies to govern technology implementation, TSA’s CIO faces significant
challenges in conducting agency-wide IT planning and investment management. We
concluded that TSA’s IT management could be strengthened by empowering the CIO with IT
budget authority, developing an agency-wide strategic planning approach, implementing an
enterprise architecture, establishing guidelines to manage IT development, and increasing
staff resources within the IT division.

Similarly, our April 2008 assessment of FEMA’s efforts to upgrade its disaster logistics
management systems13 showed that, although the agency has made short-term progress in
addressing disaster goods procurement and delivery during disasters, more remains to be
done to address long-term planning and systems integration needs. FEMA has taken steps to
improve its logistics capabilities by gathering independent evaluations to assess its existing
systems, identify IT systems requirements, and select technologies to meet its logistics needs.
However, existing systems do not provide complete asset visibility, comprehensive asset
management, or integrated logistics information. We recommended that FEMA finalize its
logistics strategy and operational plans, develop standard business processes and procedures
for logistics activities, evaluate current technologies, and develop a strategy for acquiring IT
systems to support the logistics mission.

Privacy

DHS still faces challenges in ensuring that privacy concerns are addressed throughout the
lifecycle of each program and information system that contains sensitive personally
identifiable information. According to the E-Government Act of 2002, federal agencies must
conduct a Privacy Impact Assessment (PIA) for each new or substantially changed IT system
that collects, uses, maintains, or disseminates personally identifiable information,
demonstrating that they have incorporated privacy safeguards throughout the development
lifecycle of their programs or systems. Although DHS requires PIAs at the very earliest
stage of a project or before beginning a pilot test, DHS officials did not conduct risk
assessments in a number of IT system implementations.14

In April 2008, we reported that the Intelligence and Analysis’ National Applications Office
(NAO) had made progress by involving the DHS Privacy Office early in its privacy program
planning and development of key organizational documents. However, a revised PIA and a


13
   DHS-OIG, Logistics Information Systems Need to be Strengthened at the Federal Emergency Management 

Agency, OIG-08-60, May 2008. 

14
   DHS Privacy Office, Privacy Impact Assessment Guidance, May 2007. 




                                                                                                     17
Civil Liberties Impact Assessment reflecting changes in NAO’s Charter and proposed
operations were also necessary before NAO become operational.15

IT Management Scorecard

The following scorecard demonstrates where IT management functions of the DHS CIO and
the seven largest DHS component-level CIO offices have been strengthened. This high-level
assessment identifies progress in six IT management capability areas: IT budget oversight,
IT strategic planning, enterprise architecture, portfolio management, capital planning and
investment control, and IT security. These six elements were selected based on IT
management capabilities required by federal and DHS guidelines for enabling CIOs to
manage IT department-wide. The ratings were based on a four-tiered scale ranging from
limited to substantial progress:

       �	 Limited: Plans are in place for this capability, but the capability has not been fully
          implemented;
       �	 Modest: The capability is partially implemented, with limited IT management
          benefits realized;
       �	 Moderate: The capability is implemented with moderate IT management benefits
          realized; and
       �	 Substantial: The capability is implemented with substantial IT management benefits
          realized.

Based on the consolidated result of the six IT management capability areas, the DHS OCIO
has made “moderate” progress in the area of overall Information Technology Management.


                             IT MANAGEMENT SCORECARD

IT Budget Oversight: ensures visibility into IT spending and alignment with the
                                  strategic IT direction.

       DHS CIO                    Modest Progress

                       The DHS CIO has made improvements in managing department-wide IT
                       budgets in accordance with the Clinger-Cohen Act and the department’s
                       mission and policy guidance. The DHS CIO plans to conduct reviews
                       across the department of all investments that contain IT assets and
                       services. The goals for IT budget reviews are to resolve IT budget issues
                       prior to OMB submission, align IT investments with targets and
                       priorities, and eliminate redundancies. Progress in this area was further
                       evidenced by the FY 2010 IT budget planning guidance, issued in
                       January 2008, on better integrating component IT resource reviews with
                       DHS program and budget reviews. With support of DHS leadership, the

15
     DHS-OIG, National Applications Office Privacy Stewardship, OIG-08-35, April 2008.



                                                                                                   18
                     IT MANAGEMENT SCORECARD
                DHS OCIO will continue to focus on improving IT budget capabilities.
 Component
     CIOs                 Modest Progress

                Overall, components demonstrated “modest” progress in conducting IT
                budget planning and programming functions. Although component-level
                IT budget responsibilities have increased through DHS Management
                Directive 0007.1, more than 70% of DHS component CIOs remain
                hindered by ineffective, decentralized IT budget practices. Most
                component CIOs plan to further centralize existing IT budget functions
                to meet requirements in the management directive to prepare a
                component IT budget. A number of DHS components are implementing
                initiatives to increase centralized management of IT investments by
                restructuring and consolidating IT spending accounts that are currently
                managed by separate offices throughout the agency.

IT Strategic Planning: helps align the IT organization to support mission and
                           business priorities.

   DHS CIO               Moderate Progress

                Per OMB Circular A-130, an effective IT strategic plan establishes an
                approach to align resources and provides a basis for articulating how the
                IT organization will develop and deliver capabilities to support mission
                and business priorities. The DHS OCIO has made progress aligning IT
                with department goals. Although the current IT strategic planning
                approach does not fully link technology to mission requirements, the
                OCIO plans to achieve strategic outcomes and stronger IT alignment
                with the Secretary’s goals. The OCIO is currently updating DHS’ IT
                strategic plan and has communicated the plan’s goals to the CIO Council.
 Component
     CIOs                 Modest Progress

                As of January 2008, approximately 70% of the component-level CIOs
                had developed an IT strategic plan as required by Management Directive
                0007.1. However, not all components can consistently link strategic
                goals and objectives with IT investments. Further, although some
                component CIOs said that they had developed an IT strategic plan, not all
                are up-to-date.

                Improvements are planned by some component CIOs who are updating
                their IT strategic plans. However, until the improvements are made, the
                agency may fall short of its potential to improve business processes and
                systems.



                                                                                           19
                          IT MANAGEMENT SCORECARD

Enterprise Architecture: functions as a blueprint to guide IT investments for the
                                   organization.

      DHS CIO                 Moderate Progress

                    The Clinger-Cohen Act16 requires that CIOs develop and implement an
                    integrated IT architecture for the agency to avoid the risk that systems
                    will be duplicative, not well integrated, and limited in optimizing mission
                    performance. The DHS-level enterprise architecture has advanced
                    greatly as an effective tool for reviews and IT management decision-
                    making. Overall, the DHS OCIO has increased its ability to enforce
                    architecture alignment through Management Directive 0007.1.
                    Significant progress is due in part to the IT Acquisition Review process,
                    which has helped promote and enforce such alignment. The OCIO plans
                    to mature and optimize the department’s architecture through
                    performance-based outcomes and to develop the data architecture further
                    in mission-critical areas.
     Component
                              Moderate Progress
         CIOs
                    Management Directive 0007.1 requires component CIOs to implement a
                    detailed enterprise architecture specific to the component’s mission and
                    in support of DHS’ mission. As of January 2008, more than 70% of the
                    component-level CIOs could align IT investments with the department’s
                    architecture. Most components have component-level architectures used
                    for some degree of IT investment decision-making. However,
                    architecture products, such as reference models, definitions of current
                    and future state architectures, and transition plans are in varying stages of
                    development or use. A number of components said that their architecture
                    products were out of date or needed to be better defined.

Portfolio Management: improves leadership’s ability to understand interrelationships
between IT investments and department priorities and goals.

      DHS CIO                 Moderate Progress

                    The DHS OCIO has made “moderate” progress in establishing the
                    department’s portfolio management capabilities as instructed by OMB
                    Circular A-130.17 The DHS portfolio management program aims to

16
  Clinger-Cohen Act of 1996, Public Law 104-106, Division E, Section 5125, February 10, 1996.
17
  Revision of Office of Management and Budget Circular A-130, Transmittal 4, Management of Federal
Information Resources, July 1994.



                                                                                                     20
                 IT MANAGEMENT SCORECARD
            group related IT investments into defined capability areas to support
            strategic goals and missions. Portfolio management improves
            leadership’s visibility into relationships among IT assets and department
            mission and goals across organizational boundaries.

            The DHS OCIO has a solid plan in place to implement portfolio
            management capabilities in FY 2008. The OCIO has recently finalized
            plans, along with the first round of documentation and guidance, for a
            department-level portfolio management approach. Currently, there are
            22 defined portfolio areas, six of which are considered priority areas:
            infrastructure, geospatial, case management, human resources, screening
            and credentialing, and finance. In addition, OCIO has created a portfolio
            management integrated project team to develop transition plans, measure
            performance, and standardize the portfolio management process.
            Although progress is being made, the department is not yet realizing
            management benefits from the portfolio management program. As a
            result, the department may miss opportunities for system integration and
            cost savings.
Component
    CIOs              Modest Progress

            Overall, DHS components have made “modest” progress in establishing
            portfolio management capabilities. Full implementation of this
            capability remains a work in progress, due in part to challenges in
            creating and aligning component-specific portfolios with DHS’ 22
            portfolios. Most DHS component-level CIOs have developed a mapping
            approach to align component IT systems with DHS-level portfolios.

            Many CIOs said that it is a complicated process to align their unique
            mission and business processes with multiple DHS-level IT portfolios.
            For example, Coast Guard officials said that they are working with DHS
            OCIO officials to determine which portfolios will be associated with
            each of the systems they identified in the IT budget review. Until this
            capability is fully implemented, DHS components may continue to invest
            in systems within organizational silos, limiting opportunities for
            consolidation and cost savings.




                                                                                        21
                      IT MANAGEMENT SCORECARD

Capital Planning and Investment Control: improves the allocation of resources
                                        to benefit the strategic needs of the department.

   DHS CIO                Moderate Progress

                 The Clinger-Cohen Act requires that departments and agencies create a
                 capital planning and investment control (CPIC) process to manage the
                 risk and maximize the value of IT acquisitions. The CPIC process is
                 intended to improve the allocation of resources to benefit the strategic
                 needs of the department. As part of the CPIC process, agencies are
                 required to submit business plans for IT investments to OMB
                 demonstrating adequate planning. Through such efforts, in FY 2007, the
                 94 DHS programs on the management watch list were reduced to 18. In
                 FY 2008, 53 programs are listed. Officials in the OCIO have sought to
                 remove these programs from the list by working with the program
                 managers through the CPIC Administrator’s bimonthly meetings.
                                                          Modest Progress
  Component
      CIOs                 Modest Progress

                 Most components have not yet achieved an integrated planning and
                 investment management capability. More than 70% of the major DHS
                 components had limited capital planning processes outside the existing
                 OMB 300 process. However, some component CIOs said that they are
                 creating a CPIC process to integrate with existing governance structures
                 such as the Investment Review Board. For example, the ICE Investment
                 Review Board resembles a CPIC group, incorporating major areas such
                 as security, budget, and enterprise architecture. The ICE CIO said that
                 this process has helped components leverage resources more effectively.

IT Security: ensures protection that is commensurate with the harm that would result
               from unauthorized access to information.

   DHS CIO                Moderate Progress

                 DHS IT security is rated at “moderate,” for progress made during the last
                 2 years in compliance with FISMA. OMB Circular A-130 requires
                 agencies to provide protection that is commensurate with the risk and
                 magnitude of the harm that would result from unauthorized access to
                 information and systems assets or their loss, misuse, or modification.
                 The DHS CIO has taken an active role in ensuring that components
                 comply with FISMA. In 2007, the CIO requested that components focus
                 on improving areas such as certification and accreditation, annual self­


                                                                                            22
                            IT MANAGEMENT SCORECARD
                      assessments, and plan of action and milestones management. According
                      to the DHS OCIO, additional quality control measures have been
                      implemented manage the certification and accreditation process better.
                      The DHS OCIO also plans to focus on improving disaster recovery and
                      continuity of operations over the coming year.
                      (Components were not rated on IT Security)



CATASTROPHIC DISASTER RESPONSE AND RECOVERY
The primary mission of FEMA is to reduce the loss of life and property and protect the
Nation from all hazards, including natural disasters, acts of terrorism, and other man-made
disasters. FEMA does this by leading and supporting the Nation in a risk-based,
comprehensive emergency management system of preparedness, protection, response,
recovery, and mitigation.

In March 2008, we released a report on FEMA’s progress in addressing nine key
preparedness areas related to catastrophic disasters.18 FEMA made moderate progress in five
of the nine areas: overall planning, coordination and support, interoperable communications,
logistics, and acquisition management. FEMA made modest progress in evacuation,
housing, and disaster workforce, and limited progress in mission assignments. (Please see
the catastrophic disaster response and recovery scorecard below for a discussion of selected
areas.) Our broader recommendations addressed the improvements needed in overall
planning, coordination, and communications. FEMA officials said that budget shortfalls,
reorganizations, inadequate IT systems, and confusing or limited authorities impeded their
progress.

In FY 2009, we will continue to conduct studies regarding FEMA’s preparedness, response,
and recovery efforts. These studies will allow us to further assess FEMA’s progress in
transforming itself to be better prepared to lead the federal effort in responding to a
catastrophic disaster.

Catastrophic Disaster Response and Recovery Scorecard

The following scorecard highlights FEMA’s progress in six key areas: logistics, evacuations,
housing, disaster workforce, mission assignments, and acquisition management. The ratings
were based on a four-tiered scale ranging from limited to substantial progress:

       �	 Limited: There is an awareness of the critical issues needing to be addressed, but
          specific corrective actions have not been identified;
       �	 Modest: corrective actions have been identified, but implementation is not yet 

          underway;


18
     DHS-OIG, FEMA’s Preparedness for the Next Catastrophic Disaster, OIG-08-34, March 2008.



                                                                                               23
     �	 Moderate: Implementation of corrective action is underway, but few if any have
        been completed; and
     �	 Substantial: Most or all of the corrective actions have been implemented.

Based on the consolidated result of the six areas, FEMA has made “moderate” progress in the
area of catastrophic disaster response and recovery.


FEMA CATASTROPHIC DISASTER RESPONSE AND RECOVERY
                   SCORECARD
                                                                 Moderate Progress
Logistics

 The mission of FEMA’s Logistics Management Directorate is to plan, manage, and
sustain the national logistics response and recovery operations in support of domestic
emergencies. FEMA has made “moderate” progress in meeting its logistics
responsibilities such as acquiring, receiving, storing, shipping, tracking, sustaining, and
recovering commodities, assets, and property in the event of a catastrophic disaster.

The Post-Katrina Emergency Management Reform Act of 2006 (Post-Katrina Act) 19
requires FEMA to develop a logistics system that provides visibility of disaster goods
from procurement to delivery. FEMA has not yet met this requirement. FEMA’s total
asset visibility system is unable to track goods from warehouses to staging areas to
distribution sites. Nor can it track goods received from federal and nonfederal partners.
FEMA needs to finalize its logistics plans, implement standardized processes and
procedures for logistics activities, and develop a strategy for acquiring IT systems to
support the logistics mission.20

Determining the types and quantities of commodities that FEMA may need in the
aftermath of a disaster is a continuing challenge. In 2005, FEMA was criticized for
having too few commodities available in the aftermath of Hurricane Katrina. In 2006,
FEMA acquired inventory that was not needed during the mild hurricane season,
resulting in waste. In-depth analysis of this issue resulted in FEMA’s determination that
pre-positioning commodities is neither logistically prudent nor an effective use of
taxpayer funds. Instead, FEMA plans to rely on public and private sector partners to
provide needed items. FEMA appears to have made progress in developing these
partnerships, as well as working more closely with states to determine where state
shortfalls are likely to occur.

A Distribution Management Strategy Working Group is developing and documenting an
integrated national policy and strategy for managing and controlling inventory,
19
   Public Law 109-295, Title VI – National Emergency Management, Department of Homeland Security 

Appropriations Act of 2007.
 

20
   DHS-OIG, Logistics Information Systems Need to Be Strengthened at the Federal Emergency 

Management Agency, OIG-08-60, May 2008. 




                                                                                                     24
FEMA CATASTROPHIC DISASTER RESPONSE AND RECOVERY
                   SCORECARD
positioning commodities, and distributing critical resources. In the past, FEMA has been
prone to drafting strategies, policies, and procedures that were never finalized. FEMA
leadership should ensure that this Working Group proposes strategies and policies in a
timely manner and that these proposals are promptly reviewed, finalized, and
implemented.
                                                             Modest Progress
Evacuations

The conduct of evacuation operations is generally a state, tribal, and local responsibility.
However, some circumstances exceed the capabilities of those jurisdictions to support
mass evacuations. Where federal support is required, FEMA coordinates the support
with the affected state, local and tribal governments. Federal support is scaled to the
incident level and may be provided in the form of cost reimbursement or direct
assistance, for example, providing buses, trains, and air ambulances for evacuation.

FEMA has a number of initiatives underway for improving evacuation management
capabilities and published a Mass Evacuation Incident Annex describing evacuation
functions and agency roles and responsibilities in mass evacuations. However, no single
entity within FEMA is responsible for emergency evacuation planning or operations.
FEMA has not yet developed a single national system to support multistate, state-
managed, or local evacuation operations. Coordinating transportation for evacuees
during emergencies, collaborating with states to receive and accommodate the needs of
evacuees, and ensuring that dedicated resources are available to support evacuation plans,
remain significant challenges.
                                                             Modest Progress
Housing

 Although improvements have been made, disaster housing remains a major challenge, as
demonstrated by the results of our recent audits of FEMA housing programs and
initiatives. Issues with accountability, management, and disposal of emergency housing
units persist. Plans for addressing catastrophic disaster housing needs must be developed
and tested. As we have learned from past and recent disasters, not being prepared with a
full range of housing options has significant implications for evacuees and the states and
communities that host them.

In March 2008, we reported that FEMA had made modest progress in the key
preparedness area of housing. While FEMA is striving to improve its disaster housing
assistance strategy and coordination, it needs to develop and test innovative catastrophic
disaster housing plans to deal with large-scale displacement of citizens for extended
periods, where traditional housing programs have been shown to be inefficient,
ineffective, and costly.


                                                                                               25
FEMA CATASTROPHIC DISASTER RESPONSE AND RECOVERY
                   SCORECARD

In October 2008, we reported that FEMA’s strategy for ending its direct housing
assistance program is generally sound, and that FEMA has made considerable progress
recovering temporary housing units in the Gulf Coast region.21 However, FEMA’s
strategy is not complete since FEMA’s strategy has not recertified resident eligibility or
taken action to recover temporary housing units from ineligible residents. FEMA must
implement the recertification of eligibility process to ensure recovery of all temporary
housing units by March 1, 2009, which is the ending date of FEMA’s direct housing
assistance program for hurricanes Katrina and Rita.

The Post-Katrina Act requires FEMA to develop, coordinate, and maintain a National
Disaster Housing Strategy (NDHS). FEMA released the draft NDHS for a 60-day public
comment period in July 2008. We are currently conducting a review of FEMA’s future
housing strategies and are reviewing the NDHS as part of this effort. FEMA must move
forward with a finalized strategy to guide future disaster housing efforts.
                                                                Modest Progress
Disaster Workforce

A trained, effective disaster workforce is one of the most effective tools FEMA has to
meet its mission. FEMA’s disaster workforce consists mainly of reservists who serve
temporarily during a disaster, with no employee benefits. During the 2005 Gulf Coast
hurricanes, FEMA struggled to provide qualified staff and did not have the automated
support to deploy more than 5,000 disaster personnel on short notice. As FEMA evolves,
its disaster workforce strategy, structure, and systems need to keep pace.

To date, FEMA has not completed or has not been able to verify the completion of five of
nine workforce-related actions required by the Post-Katrina Act. The five incomplete or
unconfirmed actions are:
   � Developing a Strategic Human Capital Plan;
   � Establishing career paths;
   � Conferring with state, local, and tribal government officials when selecting
       regional administrators;
   � Training regional strike teams as a unit and equipping and staffing these teams;
       and
   � Implementing a surge force capacity plan.
The congressionally mandated due dates for these actions range from March 2007
through July 2007.



21
  DHS-OIG, FEMA’s Exit Strategy for Temporary Housing in the Gulf Coast Region, OIG-09-02, October
2008.



                                                                                                     26
FEMA CATASTROPHIC DISASTER RESPONSE AND RECOVERY
                   SCORECARD
                                                            Limited Progress
Mission Assignments

FEMA is responsible for coordinating the urgent, short-term emergency deployment of
federal resources to address immediate threats and for stewardship of the associated
expenditures from the Disaster Relief Fund. FEMA uses mission assignments to request
disaster response support from other federal agencies. Past audits and reviews regarding
mission assignments have concluded that FEMA’s management controls were generally
not adequate to ensure that:
    � Deliverables (missions tasked) met requirements;
    � Costs were reasonable;
    � Invoices were accurate;
    � Federal property and equipment were adequately accounted for or managed; and
    � FEMA’s interests were protected.

FEMA guidelines regarding the mission assignment process, from issuance of an
assignment through execution and closeout, have never been fully developed, creating
misunderstandings among federal agencies concerning mission assignment operational
and fiduciary responsibilities. Implementing Section 693 of the Post-Katrina Act, which
allows FEMA to designate up to 1% of the funds provided to federal agencies for disaster
relief activities as oversight funds, will help ensure effective stewardship and oversight of
monies the recipient agencies use for activities conducted under the FEMA reimbursable
mission assignment process.
                                                            Moderate Progress
Acquisition Management (Catastrophic
Disasters)
After a disaster, FEMA’s tendency has been to acquire goods and services quickly, but
with insufficient attention to costs, definition of requirements, and competition. To
balance urgency of needs with good business practices, FEMA’s OAM has awarded
approximately 27 pre-disaster response contracts and 70 recovery contracts. Planning and
negotiating these contracts in advance of a disaster provides more advantageous terms to
the government and more opportunity for small and local businesses.

FEMA has found it difficult to recruit experienced acquisition staff. FEMA has increased
its acquisition staff from just 35 when Hurricane Katrina struck to about 150 today.
FEMA has also increased staffing and training of contracting officer’s technical
representatives (COTRs), who are responsible for technical contract oversight, inspecting
goods, and approving invoices. However, staffing remains a challenge. The new
acquisition personnel need training and experience in acquiring goods and services under
emergency circumstances. Recent OIG reports recommended increased oversight of
contractor actions and reviews of services and invoices by COTRs.


                                                                                                27
FEMA CATASTROPHIC DISASTER RESPONSE AND RECOVERY
                   SCORECARD

FEMA needs to continue hiring and training acquisition personnel, allocating staff where
the need is greatest among Headquarters and the 10 FEMA regional offices, and
developing reliable, integrated financial and information systems.


GRANTS MANAGEMENT
Monitoring and documenting the effectiveness of DHS’ multitude of grant programs poses an
increasingly significant challenge for the department. DHS manages more than 80 disaster
and non-disaster grant programs. This challenge is compounded by other federal agencies’
grant programs that assist state and local governments in improving their abilities to prepare
for, respond to, and recover from acts of terrorism or natural disasters. FEMA has yet to
fully implement the April 2007 reorganization directed by the Post Katrina Emergency
Management Reform Act of 2006. Most states are not sufficiently monitoring subgrantee
compliance with grant terms and cannot clearly document critical improvements in
preparedness as a result of grant awards.

During FY 2008, we issued audit reports on homeland security preparedness grant
management by the states of New Jersey, Ohio, Michigan, Georgia, Florida, Utah, Arizona,
and Washington. These states generally did an adequate job of administering the program
requirements; however, the most prevalent areas needing improvement concerned the
monitoring of subgrantees and controls over personal property and equipment.

We are concluding audits of the effectiveness of grant awards under the State Homeland
Security Grant Program in California and Illinois. During the first quarter of FY 2009, we
also anticipate issuing an audit mandated by the Implementing Recommendations of the 9/11
Commission Act of 2007 (Public Law 110-53) on FEMA’s grant management and oversight
practices.

Given the billions of dollars appropriated annually for preparedness, disaster, and non-
disaster grant programs, DHS needs to ensure that internal controls are in place and adhered
to, and that grant recipients are sufficiently monitored to achieve successful outcomes. DHS
should continue refining its risk-based approach to awarding preparedness grants to ensure
that areas and assets that represent the greatest vulnerability to the public are as secure as
possible. Sound risk management principles and methodologies will help DHS prepare for,
respond to, recover from, and mitigate acts of terrorism and natural disasters.


INFRASTRUCTURE PROTECTION
DHS has direct responsibility for leading, integrating, and coordinating efforts to protect 10 

critical infrastructure and key resources (CI/KR) sectors: the chemical industry; commercial 



                                                                                             28
facilities; dams; emergency services; commercial nuclear reactors, materials, and waste;
information technology; telecommunications; postal and shipping; transportation systems;
and government facilities. In addition, DHS has an oversight role in coordinating the
protection of seven sectors for which other federal agencies have primary responsibility.22
The requirement to rely on federal partners and the private sector to deter threats, mitigate
vulnerabilities, or minimize incident consequences complicates protection efforts for all
CI/KR. Combined with the uncertainty of the terrorist threat and other manmade or natural
disasters, the implementation of protection efforts is a great challenge.

In FY 2007, we reported several opportunities for DHS to improve its engagement of public
and private partners and to prioritize resources and activities based on risk.23 For example, a
comprehensive national database that inventories assets is essential to provide a
comprehensive picture of the Nation’s CI/KR and to enable management and resource
allocation decision-making. We are reviewing how DHS uses an asset database to support its
risk management framework. We also plan to evaluate how DHS coordinates infrastructure
protection with other sectors by reviewing the protection of petroleum and natural gas
infrastructure within the energy sector.

Protecting national as well as internal cyber infrastructure continues to be a challenge for
DHS. We recently reviewed the department’s progress in identifying and prioritizing its
internal cyber critical infrastructure in accordance with Homeland Security Presidential
Directive 7.24 This directive established a national policy for the federal government to
identify, prioritize, and protect U.S. critical infrastructure, including the internal critical
assets used by each department. We found that the department needs to take additional steps
to produce a prioritized inventory and to coordinate related efforts to secure these assets. We
recommend that the department assign responsibility and provide the resources necessary to
determine protection priorities for its internal critical infrastructure, including critical cyber
infrastructure. In addition, the department should develop a process to coordinate internal
efforts to protect these assets. In FY 2009, we plan to review the National Cyber Security
Division’s strategy for control systems security and its Computer Emergency Readiness
Team.


BORDER SECURITY
A principal DHS challenge is reducing America’s vulnerability to terrorism by controlling
the borders of the United States. To this end, DHS is implementing the Secure Border
Initiative (SBI), a comprehensive multi-year program to secure the borders and reduce illegal
immigration. The Coast Guard, U.S. Citizenship and Immigration Services, CBP, and ICE

22
   The seven sectors for which DHS has an oversight role are agriculture and food; the defense industrial base; 

energy; public health and healthcare; national monuments and icons; banking and finance; and water and water 

treatment systems. 

23
   DHS OIG, A Review of Homeland Security Activities Along a Segment of the Michigan-Canadian Border,
 

OIG-07-68, August 2007; Review of the Buffer Zone Protection Program, OIG-07-59, July 2007; The
 

Department of Homeland Security’s Role in Food Defense and Critical Infrastructure Protection, OIG-07-33,
 

February 2007. 

24
   DHS OIG, Letter Report: DHS Needs to Prioritize Its Cyber Assets, OIG-08-31, March 2008. 




                                                                                                              29
all have key roles in the SBI program. To ensure SBI success, it is critical that the program
be thoroughly planned. DHS also must institute an approach to coordinating the SBI
functions and activities of the participating DHS components with the related efforts of other
agencies. We are conducting a series of audits to evaluate whether the SBI program
initiatives are being accomplished in an economical, efficient, and effective manner.

The technology component of SBI, known as SBInet, involves the acquisition, development,
integration, and deployment of surveillance systems. It also involves communications and
intelligence technologies. In FY 2006, we recommended that CBP improve the effectiveness
of remote surveillance technology to correct the lack of integration between border
surveillance cameras and ground sensors, which were plagued by false alarms.25 CBP has
made some progress in improving surveillance and detection technology along the Southwest
border via Project 28, which includes enhanced radars, sensors, and cameras. However,
delays associated with software integration problems have required CBP to extend the
completion dates for implementation from December 2008 to sometime in 2009.
Consequently, Border Patrol Agents continue to use technology that predates SBInet and, in
the Tucson, Arizona sector, they are still using capabilities from SBInet’s prototype system
despite previously reported performance shortfalls.26

The definition and management of requirements is another significant challenge for the
SBInet program. According to GAO,27 the SBInet program office issued guidance on the
development and acquisition of software and systems that is consistent with recognized
leading practices. However, this guidance was not finalized until February 2008, and thus
was not used in performing a number of important requirements-related activities. For
example, there is a lack of traceability among the different levels of requirements. This
limits the program office’s ability to determine whether the scope of the contractor’s design,
development, and testing efforts will produce a system that meets operational needs and
performs as intended.

Also, efforts are needed to ensure that ICE can support its detention and removal operations.
In our recent reviews of ICE’s oversight of immigration detention facilities, we recommended
that ICE improve its standards, strengthen its oversight of facilities, and enhance operations.28
We are completing an audit of ICE’s acquisition and management of “bed space” needs to
support detention and removal operations.




25
   DHS-OIG, A Review of Remote Surveillance Technology along U.S. Land Borders, OIG-06-15,
 

December 2005.
 

26
   GAO-08-1141T, SBI Observations on Deployment Challenges, September 2008. 

27
   GAO-08-1086, Secure Border Initiative: DHS Needs to Address Significant Risks in Delivering Key 

Technology Investment, September 2008. 

28
   DHS-OIG, ICE Policies Related to Detainee Deaths and the Oversight of Immigration Detention Facilities,
 

OIG-08-52, June 2008; DHS-OIG, ICE’s Compliance with Detention Limits for Aliens with Final Order for 

Removal from the U.S., OIG-07-28, February 2007; DHS-OIG, U.S. Immigration and Customs Enforcement’s 

Detainee Tracking Process, OIG-07-08, November 2006; DHS-OIG, Treatment of Immigration Detainees 

Housed at Immigration and Customs Enforcement Facilities, OIG-07-01, December 2006; Detention and 

Removal of Illegal Aliens, OIG-06-33, April 2006. 




                                                                                                          30
TRANSPORTATION SECURITY
The Nation’s transportation system, which moves millions of passengers and tons of freight
every day, is an attractive terrorist target and creates an enormous security challenge due to
its size and complexity. TSA was originally created as a part of the Department of
Transportation after September 11, 2001, to strengthen the security of the Nation’s
transportation systems, including aircraft, ships, rail, motor vehicles, airports, seaports,
transshipment facilities, roads, railways, bridges, and pipelines. However, since its inception,
TSA has focused on aviation.

Checkpoint and Checked Baggage Performance

The Aviation and Transportation Security Act29 requires TSA to screen or inspect all
passengers, goods, and property before entry into the sterile areas of an airport. Our
undercover audits of screener performance revealed that improvements are needed in the
screening process to ensure that dangerous prohibited items are not carried into the sterile
areas of heavily used airports and do not enter the checked baggage system. In past testing,
we noted four areas that caused most of the test failures: training; equipment and technology;
policies and procedures; and management and supervision. TSA agreed with our conclusion
that significant improvements in screener performance will be possible only with the
introduction of new technology. TSA plans to purchase 300 advanced technology x-rays and
80 passenger imagers. Currently TSA has 700 advanced x-rays and 40 passenger-imaging
units deployed at 12 airports. We recently released a classified report on our penetration
testing results, specifically at those airports with explosives trace portals and an airport that
had a whole body imager, and found that improvements to effectively secure sterile airport
areas are still needed.30

The OIG will continue to exercise oversight of TSA’s performance and processes of
checkpoint and checked baggage screening. We are currently in the process of conducting
audits of TSA’s controls over screener uniforms, badges, and identification cards, as well as
the effectiveness of TSA’s explosives detection systems on-screen alarm resolution protocol.
These reports will be issued later this year.

Employee Workplace Issues

A stable, mature, and experienced TSA workforce is one of the most effective tools to meet
the agency’s mission. Despite the value of the TSA workforce, employees have expressed
their concerns about how the agency operates by historically filing formal complaints at rates
higher than other federal agencies of comparable size. Our audit of TSA’s efforts to address
employee concerns found that low employee morale continues to be an issue at some airports
and has contributed to TSA’s 17% voluntary attrition rate.31


29
   Public Law 107-71, November 19, 2001. 

30
   DHS-OIG, Airport Passenger and Checked Baggage Performance, OIG-08-25, February 2008. 

31
   DHS-OIG, TSA’s Efforts to Proactively Address Employee Concerns, OIG-08-62, May 2008. 




                                                                                              31
More than half the employees we interviewed described the agency’s efforts to educate them
on the various initiatives available to address their workplace concerns as “inadequate.” We
made six recommendations to the Assistant Secretary of TSA to provide employees with
sufficient tools, including clear guidance and better communication, on the structures,
authorities, and oversight responsibilities of the initiatives we reviewed. TSA fully or partly
concurred with five of the recommendations and has taken action to resolve them.

Passenger Air Cargo Security

The vast and multifaceted U.S. air cargo system transports approximately 7,500 tons of cargo
on passenger planes each day, making air cargo vulnerable to terrorist threats. Federal
regulations (49 CFR) require that, with limited exceptions, passenger aircraft may only
transport cargo originating from a shipper that is verifiably “known” either to the aircraft
operator or to the indirect air carrier that has tendered the cargo to the aircraft operator. We
are conducting an audit to assess how TSA ensures that cargo from unknown shippers is not
being shipped on passenger planes. This report is expected to be issued later this year.
During 2009, we also plan to audit TSA’s cargo security measures during ground movement.

Rail and Mass Transit
Since the terrorist attacks of September 11, 2001, the London subway bombings, and the
Madrid rail bombings, DHS has taken steps to manage risk and strengthen our Nation’s rail
and transit systems. While most mass transit systems in this country are owned and operated
by state and local government or private industry, securing these systems is a shared
responsibility among federal, state, and local partners.
DHS operates multiple programs, including several grants, to improve rail and mass transit
security. In June 2008, we reported on TSA’s efforts to secure mass transit through four
major assistance programs: the Surface Transportation Security Inspection Program, Transit
Security Grant Program, Visible Intermodal Prevention and Response program, and the
deployment of canine explosive detection teams for rail.32 TSA needs to clarify its transit rail
mission, improve interoffice communication and coordination, develop memorandums of
understanding with local transit authorities, and develop additional regulations. TSA also
needs to understand and address system-specific security requirements better. We are
completing mandates to review the effectiveness of the Trucking Industry Security Grant
Program and to report further on the Surface Transportation Security Inspection Program.

During emergencies transit agencies must rely on well-designed and regularly practiced drills
and exercises to respond and recover rapidly and effectively. Recent events on the rail
systems in Washington DC, including a derailment and a fire, have raised questions
regarding the mass transit agencies’ contingency plans and the ability to handle these basic
issues, as well as major emergencies. We will evaluate TSA’s efforts to ensure that mass
transit agencies are prepared to respond and recover from emergencies on passenger rail
systems. We will review TSA’s role in security program management and accountability,

32
  DHS-OIG, TSA’s Administration and Coordination of Mass Transit Security Programs, OIG-08-66, June
2008.



                                                                                                      32
security and emergency response training, drills and exercises, public awareness, and other
protective measures for passenger rail systems.


TRADE OPERATIONS AND SECURITY

CBP is primarily responsible for trade operations and security, with the support of the Coast
Guard and ICE. Each year, more than 16 million containers arrive in the United States by
ship, truck, and rail. CBP typically processes more than 70,000 truck, rail, and sea containers
per day, along with the personnel associated with moving this cargo across U.S. borders or to
U.S. seaports. Modernizing trade systems, using resources efficiently, and managing and
forging partnerships with foreign trade and customs organizations pose significant challenges
for CBP and DHS.
CBP works with trade representatives to implement processes and systems to help secure the
supply chain and uses targeting systems to identify the highest risk cargo on which to focus
its limited resources. Recently, CBP increased its international efforts to secure the cargo
supply chain by expanding its work with the Customs-Trade Partnership against Terrorism
program and by improving its multi-layered security strategy.

The Coast Guard and Maritime Transportation Act of 2004 (Public Law 108-293) requires
us to evaluate and report annually on the effectiveness of the Automated Targeting System
(ATS), which is an intranet-based enforcement and decision support tool used by CBP
seaport inspectors to help determine which containers entering the country will undergo
inspection. Our annual ATS review in 200833 focused on a subsystem of ATS, the Cargo
Enforcement Reporting and Tracking System (CERTS), which is designed to gather data on
cargo examination findings and report on how efficiently examination equipment is being
used. We identified the need for improvements in planning, updating, developing, and
implementing CERTS. Specifically, CBP needs to update the project plan to include the
scope of work, and a detailed implementation schedule for system design, developing and
testing, and cost estimates past phase one. In addition, CBP bypassed key life cycle reviews
designed to ensure that end users have a properly working system and have received
management’s approval to continue the project.

The Coast Guard is responsible for developing and implementing a comprehensive National
Maritime Transportation Security Plan to deter and respond to transportation security
incidents. Our most recent annual review of mission performance34 revealed that the Coast
Guard must make several improvements to implement the Maritime Transportation Security
Act of 2002 (Public Law 107-295) in a timely and effective manner. For example, the Coast
Guard needs to balance the resources devoted to the performance of homeland and non-
homeland security missions; improve the performance of its homeland security missions;
maintain and re-capitalize its Deepwater fleet of aircraft, cutters, and small boats; restore the


33
   DHS-OIG, Targeting of Cargo Containers 2008: Review of CBP’s Cargo Enforcement Reporting and
Tracking System, OIG-08-65, June 2008.
34
   DHS-OIG, Annual Review of Mission Performance – FY2006, OIG-08-30, February 2008.



                                                                                                  33
readiness of small boat stations to perform their search and rescue missions; and increase the
number and quality of resource hours devoted to non-homeland security missions.

We are reviewing CBP’s Account Management Program and National Targeting and
Analysis Groups, which aim to improve revenue collection compliance. We are also
reviewing DHS’ planning, management oversight, and implementation of security measures
to protect against small vessel threats.




                                                                                            34
Appendix A
Report Distribution


      Department of Homeland Security

      Secretary
      Deputy Secretary
      Executive Secretary
      Chief of Staff
      Deputy Chief of Staff
      General Counsel
      Under Secretary Management
      Assistant Secretary for Public Affairs
      Assistant Secretary for Policy
      Assistant Secretary for Legislative Affairs
      Chief Financial Officer
      Chief Information Officer
      Chief Security Officer
      Chief Privacy Officer

      Office of Management and Budget

      Chief, Homeland Security Branch
      DHS OIG Program Examiner

      Congress

      Congressional Oversight and Appropriations Committees, as appropriate




                                                                              35
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4199,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
